                  A Publication of the Inspection and Evaluation Committee




  An IG’s Guide to Evaluating
       Agency Emergency Preparedness




                                  November 2006


PRESIDENT’S COUNCIL ON INTEGRITY AND EFFICIENCY

                                     EXECUTIVE COUNCIL ON INTEGRITY AND EFFICIENCY
      June 2002                                        February 2004




                             November 2003                                        January 2005




                    Recognizing that “together everyone achieves more,” the

           I&E Committee and Roundtable undertook this project because we believed

           there was a need within the IG community for consolidated information and

              common guidelines that inspector general staffs could use to structure

                 emergency preparedness program reviews within their agencies.





INSPECTION AND EVALUATION COMMITTEE

    The Inspection and Evaluation Committee of       The Committee is supported by a very active
    the PCIE/ECIE seeks to enhance the work of       Inspections and Evaluation Roundtable, which
    the inspector general community and, in turn,    is composed of the assistant inspectors general
    government operations by helping improve the     or heads of inspection and evaluation units
    management of federal programs. To do this       within federal offices of inspector general. The
    the Committee shares effective I&E practices     Roundtable’s purpose is to promote the
    and insights in order to enhance the conduct     professional development of employees in
    of inspections and evaluations, and provides     those units, improve the practice of evaluation
    or identifies opportunities for training to      and analysis, and make positive contributions
    sharpen the analytic and administrative skills   to the IG community.
    of OIG inspectors and evaluators.
                PRESIDENT’S COUNCIL ON INTEGRITY AND EFFICIENCY

                EXECUTIVE COUNCIL ON INTEGRITY AND EFFICIENCY



I&E COMMITTEE           MEMORANDUM FOR THE MEMBERS OF THE PCIE AND ECIE

MEMBERS
JOHNNIE FRAZIER         FROM:	              Johnnie E. Frazier
 IG Commerce, Chair                         Chair, Inspection and Evaluation Committee
CHRISTINE BOESZ
 IG NSF                 SUBJECT:	 An IG’s Guide to Evaluating Agency Emergency
CARL CLINEFELTER                  Preparedness
 IG FCA
GLENN FINE
                        I am pleased to present this latest publication of the PCIE/ECIE Inspection and Evaluation
 IG Justice
                        Committee and its Roundtable, designed to help the IG community in its efforts to oversee federal
GORDON HEDDELL
                        emergency preparedness activities. This guide is but another tangible example of our collaborative
 IG Labor
                        spirit and dedication to the shared goal of making government work better. It is a product of great
HOWARD KRONGARD
                        effort by staff from numerous IG offices and draws on a broad, representative sample of our work
 IG State
                        in the critical area of government preparedness.
DANIEL LEVINSON
 IG HHS
                        In the pages that follow you will find a discussion of the key areas of concern we share in undertaking
GEORGE OPFER
                        these reviews as well as lessons we have learned and important reference materials to help us plan
 IG Veterans Affairs
                        and execute this work. As such, I believe this guide will help us focus on the essential aspects of
                        preparedness programs and identify needed improvements.
JILL GROSS
I&E Roundtable, Chair
                        The I&E Committee and Roundtable undertook this project because we believed there was a need
                        within the IG community for consolidated information and common guidelines that inspector general
                        staffs could use to structure emergency preparedness program reviews within their agencies. In these
                        post-9/11 and -Katrina years, we tend to think of such programs as those designed to prevent,
                        prepare for, respond to, and recover from terrorist attacks and major disasters. But catastrophic
                        events are only part of the equation. Agencies must have plans in place to address the full gamut of
                        potential emergencies that endanger their people and property. These range from the unthinkable,
                        embodied in the events of 9/11, to the more commonplace, such as fires or floods. The flooding that
                        occurred in several government buildings this past summer and the temporary shutdowns that
                        followed are a case in point.

                        As a nation, our confidence in our response capabilities was sorely shaken in the aftermath of
                        Hurricane Katrina. Inspectors general have responded with a sharpened focus on their agency’s
                        efforts to be ready for the next inevitable event, whatever it may be. This publication is a valuable
                        tool for helping the IG community conduct high-quality work in this area.

                        The suggestions and guidelines offered herein are the product of the cumulative knowledge and
                        insights of the I&E Roundtable membership, other components of the IG community, the President’s
                        Council on Integrity and Efficiency, and the Executive Council on Integrity and Efficiency. Though
                        advisory, the guidance can facilitate the OIG review process, help ensure that agencies are prepared
                        for any and all emergencies, and support the Homeland Security Act’s goal of creating a better
integrated, more uniform federal response to natural or terrorist incidents that threaten the lives of employees
or the continuity of government or private sector operations.

I want to personally thank all who participated in this project. The Defense Intelligence Agency OIG, which
had the lead, deserves special recognition, as does the Commerce OIG editorial and design staff along with
the I&E Roundtable and OIGs from the Departments of Agriculture, Commerce, Defense, Education,
Energy, Homeland Security, and Veterans Affairs; the Environmental Protection Agency; the Farm Credit
Administration; the Federal Communications Commission; the Federal Deposit Insurance Corporation; the
Federal Election Commission; the General Services Administration; the Government Printing Office; the
U.S. Small Business Administration; and the National Reconnaissance Office. I have no doubt that this
guide will enrich our work in this critical area and, by extension, improve the safety and security of federal
employees and operations everywhere.
CONTENTS

Preface
                                                                       1


I.	        Federal Preparedness Requirements:

           What You Need to Know Before You Begin
                             3

           Lessons Learned, and Learned Again
                                 6

II.        Evaluating Your Agency’s Readiness
                                 7


           The Occupant Emergency Plan                                         8


           Continuity of Operations Planning	                                  11


           Emergency Planning Organizations	                                   14


           Testing Preparedness Plans	                                         17


III.	      Afterword: Understanding Your Critical Role                         21


IV.	       Appendixes:                                                         23


           A.	    Occupant Emergency Plan Checklist                            24


           B.	    Command and Management Under the National Incident

                  Management System (NIMS)                                     25


           C.	    NIMS Templates: Emergency Operations Plans and Checklist     29


           D.	    GAO Checklist for Continuity of Operations Reviews           31


           E.	    Emergency Support Functions Assigned to Federal Agencies     33


           F.	    Glossary of Key Terms                                        35


           G.	    Internet Resources for Disaster Preparedness                 40


           H.	    References
                                                  41

           I.	    Sample of OIG Emergency Preparedness Reports and Contacts
   43
PREFACE


I
    n the years since the terrorist attacks of          emergency preparedness reviews conducted by
    September 11, 2001, America has given               various OIG inspection and audit teams, this
    unprecedented attention and resources to            booklet offers a commonsense approach to
ensuring national security and preparedness. And        assessing department and agency disaster
yet the more recent devastation of Hurricane            response plans. It puts the current state of
Katrina left the public as well as officials at all     emergency preparedness thinking in historical
levels of government questioning just how               context by describing the primary failings in our
ready we are to respond to                                             response to national disasters of
emergencies—whether natural or           Given today’s ever-           recent memory and the changes they
manmade, anticipated or                  changing types and            have prompted in present-day
unforeseen. These disasters gave                                       approaches. It outlines the key
                                          sources of threats,
renewed urgency to the mammoth                                         federal mandates with which
task facing federal agencies in the      effective emergency           preparedness programs must
post-9/11 era—maintaining robust              preparedness             comply. It offers best practices,
disaster preparedness and recovery      requires the vigilant, practical program criteria,
programs to protect America’s             collective, creative         checklists, and other resources OIG
people and property from                    focus of public            staff can use to measure their
devastating loss. This has been                                        agency’s readiness to respond to
                                         organizations at all
new ground for most federal                                            disaster.
agencies, which heretofore had         levels    of government.
preparedness programs of limited                                       All in the OIG community are
scope. Given today’s ever-changing types and            encouraged to continue to share common
sources of threats, effective emergency                 experiences and best practices with the leadership
preparedness requires the vigilant, collective,         of their respective agencies and the IG community
creative focus of public organizations at all levels    at large. It is only through such dialog that we
of government. The current effort to develop a          can keep disaster preparedness thinking and
plan for responding to a potential bird flu             decision making fresh and proactive, and
pandemic is a case in point. While public health        constantly improve upon programs that are in
agencies may take the lead, all government              place or under development.
agencies will be involved in the implementation,
if only to protect their own employees.

At the federal level, offices of inspector general                                Working Web Links
play a key role in determining whether their            As with all things technology-related, web site urls can become
agency’s disaster preparedness programs are in          outdated almost as quickly as they are created. When we went to
                                                        press, all the links contained in the guide were current. However, if a
fact viable. And the purpose of this publication is     link you attempt to access is no longer available and you are not
to help them make that determination. Drawing           redirected to a new location, a simple keyword search should bring
                                                        you to the most up-to-date information on the subject you seek.
from the most recent federal guidance and



November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                                             1

It takes a deep commitment to change and
an even deeper commitment to grow.

                          ~ Ralph Ellison
I. FEDERAL PREPAREDNESS REQUIREMENTS:
   WHAT YOU NEED TO KNOW BEFORE YOU BEGIN


C
        omprehensive national preparedness as a
        major focus and coordinated movement in
        this country was born of the lives lost and
illusions shattered in the 1995 bombing of the
Alfred P. Murrah Federal Building in Oklahoma
City and the terrorist attacks of September 11,
2001. These events fundamentally changed the
scope of federal involvement in preparedness, as
they exposed serious shortcomings in readiness and
homeland security and expanded agencies’ efforts
to keep their employees and workplaces safe and
secure. With this intensified focus on preparedness
came new federal guidance and requirements as                The bombing of the Murrah building left 169 people
well as new oversight responsibilities for the               dead, including 19 children in the on-site daycare center.
                                                             The disaster prompted sweeping changes in security
inspector general community.
                                                             requirements and building codes for federal facilities.

This chapter outlines the federal laws, regulations,         Source: http://www.hq.usace.army.mil/cepa/pubs/aug01/
and guidance you need to be familiar with before             murrah.jpg
you begin your assessment and gives links for
accessing the full documents. These materials               •	 Presidential Decision Directive 67 (PDD
dictate the requirements that agency preparedness             67), Continuity of Operations, requires
programs must meet, so you know what to look                  federal agencies to develop continuity of
for in your assessments.                                      operations plans (COOPs) that detail how the
                                                              agency will perform essential functions
   •	 The Federal Management Regulations                      during circumstances that disrupt normal
     (formerly the Federal Property Management                operations.
     Regulations) mandate that every federal
     facility establish (1) an occupant emergency             Passed in October 1998, PDD 67 set a
     plan (OEP) that lays out procedures for                  deadline of October 21, 1999, for agencies
     protecting life and property under emergency             to define their essential functions and
     conditions and (2) an occupant emergency                 personnel, and have arrangements for
     organization composed of employees who                   alternate facilities that could (1) be up and
     perform specific tasks outlined in the OEP.              running within 12 hours and (2) sustain
     www.gsa.gov/federalmanagementregulation                  operations for at least 30 days. The directive

 November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                                     3
        assigned the Federal Emergency                             Services Staff, Justice Management Division,
        Management Agency (FEMA) as the focal                      USDOJ, (202) 616-2995.
        point for helping agencies implement these                A helpful publication for understanding and
        requirements. http://www.fas.org/irp/offdocs/             applying building security standards is GSA’s
        pdd/pdd-67.htm                                            Security Resource Guide, available at http://
    •	 Federal Preparedness Circular 65 (FPC                      www.usda.gov/da/physicalsecurity/gsa.htm.
      65), Federal Executive Branch Continuity of                •	 Homeland Security Presidential
      Operations, defines the elements of a viable                 Directive (HSPD 3), Homeland Security
      COOP and provides guidance for developing                    Advisory System, established the five color-
      one. The circular, originally issued by FEMA                 coded threat levels (green is the lowest threat;
      in 1999, was revised and reissued in 2004 to                 red the highest), and requires agencies to
      address some of the gaps in federal                          include in their response plans, protective
      preparedness exposed by the September 11                     measures that address all five threat levels.
      attacks. http://www.fema.gov/txt/library/                    HSPD 3 was issued in March 2002. http://
      fpc65_0604.txt                                               www.whitehouse.gov/news/releases/2002/
    •     The Vulnerability Assessment of Federal                  03/20020312-5.html
        Facilities, issued in 1995 by the Department
        of Justice, recommends 52 minimum                        •	 HSPD 5, Management of Domestic
        standards for security at federal facilities and           Incidents, dated February 2003, directed the
        establishes five security levels that                      Department of Homeland Security to
        correspond to a site’s location and activities             establish the National Incident Management
        as they relate to national security. Level 1               System (NIMS) and National Response Plan,
        facilities pose the lowest risk to national                both issued in 2004. These planning
        security; level V, the highest. The Interagency            documents restructured how federal, state,
        Security Committee1 issued more current and                and local government agencies and
        specific guidance in April 2005—Security                   emergency responders are supposed to
        Standards for Federal Buildings—and                        conduct disaster preparation, response, and
        Justice recommends that IG staff use these                 recovery efforts. NIMS is a framework of
        over the 1995 guidance. The committee’s                    best practices, concepts, and procedures,
        standards are available at http://www.fas.org/             along with standard command and
        sgp/crs/homesec/RS22121.pdf #search=%22                    management structures, that have universal
        Interagency%20Security%20Committee%22.                     applicability to incident response organ
        The 1995 Justice standards are not                         izations at all levels of government. The
        available online, but you can request a                    system is intended to enable local, state, and
        paper copy from Adam Bodner at                             federal responders from different
        Adam.H.Bodner@usdoj.gov or from                            jurisdictions and different disciplines to
        Director, Facilities and Administration                    take a coordinated, unified approach to
                                                                   “nationally significant” emergencies of all
                                                                   kinds: terrorism, fire, floods, hurricanes,
1
  The Interagency Security Committee, established by executive     hazmat spills, etc. Appendix B gives an
order in 1995, consists of the GSA administrator and               overview of the purpose and goals of NIMS.
representatives from 15 federal departments, the CIA, and the
Office of Management and Budget. For more information, visit
                                                                   (View HSPD 5 at http://ww.whitehouse.gov/
http://frwebgate.access.gpo.gov/cgi-bin/                           news/releases/2003/02/20030228-9.html.
getdoc.cgi?dbname=1995_register&docid=fr24oc95-145.pdf.            View the full description of NIMS at http://
                                                                   www.dhs.gov/interweb/assetlibrary/NIMS

4                                                                  90-web.pdf.)

                                                                                Inspection and Evaluation Committee
   •	 The National Response Plan, through                  •	 HSPD 7, Critical Infrastructure
     NIMS, provides the national policy and                  Identification, Prioritization, and Protection,
     operational direction for domestic incident             directs federal departments and agencies to
     management. (View the full plan at http://              identify, prioritize, and coordinate the
     www.dhs.gov/inter web/assetlibrary/                     protection of the nation’s critical
     NRP_FullText.pdf or the plan’s quick                    infrastructure and key resources. HSPD 7
     reference guide at http://www.dhs.gov/                  assigns specific responsibilities to
     interweb/assetlibrary/NPR_Quick_                        Agriculture, Health and Human Services,
     Reference_Guide_5-22-06.pdf.)                           EPA, Energy, Treasury, Interior, and Defense.
                                                             (See box below.)

                                                           •	 HSPD 8, National Preparedness, directs
                                                             the head of each federal department to be
                                                             prepared to fulfill specific roles in the conduct
                                                             of larger federal response efforts, such as
                                                             those that were required for Hurricane
                                                             Katrina. http://www.whitehouse.gov/news/
                                                             releases/2003/12/20031217-6.html




            Agencies with Specific Responsibilities Under HSPD 7

           •	 Agriculture — agricultural resources, meat, poultry, egg products
           •	 Health and Human Services — public health, healthcare, and food (other
             than meat, poultry, egg products)

           •	 Environmental Protection Agency — drinking water and water treatment
              systems

           •	 Energy — production, refining, storage, and distribution of oil and gas: also
             for electric power except for commercial nuclear power facilities, which will
             be handled by the Nuclear Regulatory Commission in coordination with
             Energy, as appropriate

           •	 Treasury — banking and finance

           •	 Interior — national monuments and icons

           •	 Defense — defense industrial base
           Source: http://www.whitehouse.gov/news/releases/2003/12/20031217-5.html




November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                            5
LESSONS LEARNED, AND LEARNED AGAIN


M      any of the large-scale events that have
       occurred in recent history have often
produced similar lessons learned: Hurricane
Andrew in 1992, the 1993 World Trade Center
bombing, the 1995 Murrah building bombing, the
terrorist attacks of 9/11, and, most recently,
Hurricane Katrina exposed serious flaws in
incident command structures, first responder
communications capabilities and service delivery,
interagency coordination, building codes,
evacuation plans and procedures, and general
readiness of the public at large. The events of 9/11
prompted the coordinated approach to
preparedness envisioned by NIMS and the National
Response Plan in an all-out effort to eliminate these
weaknesses. Katrina was the strategy’s first real
test. A key lesson learned here was that little
progress had been made toward unifying national
response management: coordinated local, regional,
and national preparedness plans and procedures
remained an elusive goal. Worse was the reality
that many agencies had still not effectively                 12. Environmental Hazards and Debris
implemented some long-standing preparedness                      Removal
requirements: viable COOPs, occupant emergency               13. Foreign Assistance
plans, and command and control structures.                   14. Nongovernmental Aid
                                                             15. Training, Exercise, and Lessons
                                                                 Learned
Subsequently, a special White House review team              16. Homeland Security Professional
identified sweeping failures in the following 17                 Development and Education
areas:                                                       17. Citizen and Community Preparedness
     1. National Preparedness
     2. Integrated Use of Military Capabilities              To view the full White House report, visit
     3. Communications (equipment operability           http://www.whitehouse.gov/reports/katrina
         and interoperability)                          lessons-learned/chapter5.html.
     4. Logistics and Evacuations
     5. Search and Rescue                               In the wake of the Katrina debacle, many federal
     6. Public Safety and Security                      requirements, including those imposed by NIMS
     7. Public Health and Medical Support               and the National Response Plan, are being revisited
     8. Human Services                                  and revised. This situation complicates the task of
     9. Mass Care and Housing                           assessing these programs, and challenges the IG
    10.	 Public Communications (warning and             community to revisit agency preparedness
         follow-up systems)                             programs with some regularity to ensure they
    11. Critical Infrastructure and Impact              incorporate the latest requirements.
          Assessment

6                                                                         Inspection and Evaluation Committee
II. EVALUATING YOUR AGENCY’S READINESS

       o how might you structure an evaluation of •	 Have components been vigorously tested under

S      your agency’s preparedness plans, given
       that current requirements are being
reevaluated and may well change? Developing and
                                                         simulated conditions and against performance
                                                         goals and baselines?

sustaining emergency preparedness capabilities •	 Were plans modified as a result of testing and
will always be a work in progress for your agency,       to keep current with changes in federal
as new events point up new areas of need and as          preparedness requirements?
new ways of handling emergencies become
                                                      •	 Did leaders and disaster preparedness planners
available. IG assessments of these efforts—no
                                                         anticipate and prepare for the possible threats
matter how broad or narrow the scope—should
                                                         to their workforce, infrastructure, and the
focus on the status of preparedness at a single point
                                                         agency’s ability to execute its essential mission
in time and measure agency programs against the
                                                         responsibilities before, during, and following
requirements in force.
                                                         a disaster?
Whether you opt to review a single component of
an overall preparedness program, such as occupant
emergency plans (OEPs) or continuity of
operations plans (COOPs), or you consider the
disaster preparedness status of an entire
department, you should begin by asking some basic
questions:
•	 Has your agency established clear performance
   goals and baselines for the effort?

•	 Is the program in keeping with requirements
   of relevant Homeland Security Presidential
   Directives, NIMS, and the National Response
   Plan? (See chapter 1 and appendix C for
   information on these initiatives and the NIMS
   checklist for emergency operations programs.)

•	 Are program components well integrated into
   the agency’s overall disaster preparedness
   program?




November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                        7

EVALUATING YOUR AGENCY’S READINESS

                                THE OCCUPANT EMERGENCY PLAN





         Employee-staffed emergency response teams are often the foundation of an agency’s occupant emergency
         organization, making sure that coworkers and others in the facility follow prescribed procedures.
         Source: U.S. Department of Commerce OIG




T    he occupant emergency plan is the most basic
     component of federal disaster preparedness.
Its purpose is to put in place procedures to protect
                                                                 Appendix A contains the OEP Guide checklist. Use
                                                                 this tool as the framework for your review, along
                                                                 with the requirements in HSPD 3, Homeland
individual agency facilities and employees. OEP                  Security Advisory System, and HSPD-5,
responsibilities and requirements are laid out in                Management of Domestic Incidents. The Secretary
the Federal Management Regulations (§102-74),                    of Homeland Security set fiscal year-end 2005 as
with more specific guidelines provided in the GSA/               the deadline for federal departments and agencies
Federal Protective Service Occupant Emergency                    to incorporate the requirements of NIMS into their
Program Guide (OEP Guide) at http://                             emergency planning. FEMA published the NIMS
w w w. w a s c . n o a a . g o v / w r s o / o e p - c o o p /   templates (see appendix C) to guide agencies
GSA_OEP_Guide_6.doc.2 The regulations and                        through the process of updating emergency
guidelines mandate that every federal facility have              preparedness plans, including the OEP. More
an OEP, establish an occupant emergency                          information is available at http://www.fema.gov/
organization composed of employees designated                    emergency/nims/index.shtm. In addition, Planning
to perform specific OEP tasks, and offer guidance                Scenarios Executive Summaries (http://
for responding to specific types of emergencies and              www.globalsecurity.org/security/library/report/
for establishing evaluation routes and command                   2004/hsc-planning-scenarios-jul04.htm#toc),
center capabilities.                                             published by the Homeland Security Council in
                                                                 July 2004, provides background for emergency
2
 The OEP Guide, released in 2002, is being revised by the        planning activities, including OEPs.
Federal Protective Service.


8                                                                                    Inspection and Evaluation Committee
EVALUATING YOUR AGENCY’S READINESS

                                THE OCCUPANT EMERGENCY PLAN
                                                        downloads/pdf/publications/fa-235-508.pdf) and
                                                        Emergency Procedures for Employees with
                                                        Disabilities in Office Occupancies (http://
                                                        www.usfa.dhs.gov/downloads/pdf/publications/fa
                                                        154.pdf.)


                                                        Procedures for Federal Child Care
                                                        Centers
                                                        If your agency has an on-site child care center, GSA
                                                        recommends that the occupant emergency plan
                                                        contain a section specifically devoted to emergency
                                                        procedures for the center. For guidance on
                                                        evaluating the child care plan, see Evacuation Plan
                                                        for Child Care Centers at http://www.gsa.gov/
       Emergency response teams must be trained
                                                        Portal/gsa/ep/contentView.do?contentType
       and equipped to evacuate employees with          =GSA_BASIC&contentId=11254&noc=T.
       special needs.                                   Besides assessing whether the child care OEP
       Source: U.S. Department of Commerce OIG          meets these criteria, you should evaluate whether
                                                        the plan is consistent with and integrated into the
Shelter in Place                                        broader agency plan and NIMS framework.
OEPs must include procedures for “shelter in
place,” in which building occupants do not              OEP Shortcomings and Best Practices
evacuate the facility but are moved to areas within
                                                        OIG reviews of agency emergency preparedness
that provide maximum protection from an external
                                                        have identified a range of weaknesses in agency
threat (e.g., civil unrest, release of a toxic agent,
                                                        occupant emergency plans as well as best practices
or a severe weather emergency). For more
                                                        that greatly enhanced occupants’ knowledge of
information, see OPM’s Federal Manager’s/
                                                        readiness procedures and ability to execute them
Decision Maker’s Guide at http://www.opm.gov/
                                                        in an emergency.
emergency/PDF/ManagersGuide.pdf.

Procedures for People with Disabilities                 SHORTCOMINGS NOTED

Executive Order 13347 requires the federal •	 Agencies that managed emergency pre
government to provide for the safety of people with   paredness centrally sometimes did not
disabilities during emergencies. The OEP Guide        systematically review OEPs and preparedness
specifies the type of emergency planning,             planning in field locations.
procedures, communications, and equipment
necessary for people with disabilities. Additional •	 Some OEPs lacked phased security procedures
guidelines are available in the Orientation Manual    to correspond to DHS’ five threat levels; did
for First Responders on the Evacuation of People      not post evacuation procedures or otherwise
with Disabilities (http://www.usfa.dhs.gov/           provide them to building occupants; did not


November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                          9
EVALUATING YOUR AGENCY’S READINESS

                                THE OCCUPANT EMERGENCY PLAN

                                                                      explosive devices or explosions,
                                                                      and natural events such as
                                                                      earthquakes, tornadoes, hurricanes,
                                                                      or severe flooding).

                                                                  o	 Contain policies on the purchase,
                                                                     placement, and use of emergency
                                                                     escape hoods.

                                                                  o	 Have separate plans for child care
                                                                     centers, where applicable.

     Equipping employees with escape hoods and                    o	 Provide for shelter-in-place pro
     the know-how to use them was a best practice                    cedures, training, or exercises, or
     identified in numerous IG reviews.                              stipulate what food and water
     Source: U.S. Department of Commerce OIG                         supplies should be maintained on-
                                                                     site.
   have appropriate procedures, equipment, or
   trained staff for evacuating people with            •	 Some facilities did not have an approved
   disabilities; or did not call for testing              OEP in place.
   evacuation procedures under realistic
   scenarios.                                          BEST PRACTICES
                                                       •	 Distributing pocket emergency cards that
•	 OEPs sometimes failed to
                                                          contain building evacuation and shelter-in
           o	 Identify designated officials and           place instructions and emergency telephone
              alternates, or individuals with key         numbers.
              OEP responsibilities.
                                                       • 	 Installing automated phone notification systems
           o	 Detail procedures for adequately              to advise employees of reporting instructions.
              communicating         with     and
              accounting for personnel in              •	 Equipping managers at all agency facilities
              facilities during emergency                 with Blackberries for transmitting up-to-the
              response situations or coordinating         minute emergency information.
              emergency response with first
              responders (e.g., local fire, law        • 	 Conducting periodic unannounced tests of
              enforcement, and medical                     various evacuation scenarios.
              personnel).
                                                       •	 Providing escape hoods and associated training
           o	 Address all types of emergencies            to all employees.
              (e.g., chemical/biological, nuclear/
              radiological, fire, civil disturbance,   •	 Storing emergency supplies (potable water
              terrorist or hostage incidents,             and food) for extended shelter-in-place
                                                          situations.
10                                                                      Inspection and Evaluation Committee
EVALUATING YOUR AGENCY’S READINESS

                            CONTINUITY OF OPERATIONS PLANNING





    CRITICAL
    CRITICALINFRASTRUCTURE
             INFRASTRUCTURE
HSPD-7, Critical Infrastructure Identification, •	 Designate key leadership positions and
Prioritization, and Protection, expanded the COOP   establish a chain of succession to ensure
requirements established in Federal Preparedness    continuity of decision making.
Circular 65 by mandating that departments and
agencies ensure their emergency and COOP •	 Establish multiple alternate operational sites
planning enables them to protect critical national  and plans for evacuating key personnel to those
infrastructure for which they have responsibility.  sites.
The COOP must link organizational planning for
essential functions to government-wide plans for •	 Plan for backup telecommunications and
preserving and restoring the nation’s critical      information technology capabilities to support
infrastructure.                                     each alternate site and ensure connectivity to
                                                    the national emergency decision-making
In April 2005, GAO reported that federal            infrastructure.
government COOP planning had improved, but
                                                    •	 Make essential records and files accessible
noted a lack of documentation in the identification
                                                       immediately from each alternate site to ensure
of essential functions that serve as the basis for
                                                       continuity of decision making and operational
continuity of operations planning, which raised
                                                       capabilities.
questions about the rigor with which organizations
had undertaken the identification process.3 As part •	 Establish procedures for locating and
of its review, GAO analyzed agency continuity          transporting key officials or alternates in the
planning against a list of key considerations for      succession plan to the COOP location(s).
identifying essential functions. Appendix D is a
checklist adapted from the GAO analysis. Use this •	 Include activation and notification procedures
checklist to aid your evaluation of agency COOP        that trigger the COOP.
viability.
                                                    •	 Contain detailed test and evaluation plans to
 At a minimum, every COOP plan must                    ensure the effectiveness of preparation for
                                                       continuity of operations.
•	 Identify and document essential mission
    functions and critical infrastructure.              •	 Include plans for actively maintaining the
                                                           alternate sites’ operational capabilities such that
3
  GAO-05-577, Report to the Chairman, Committee on         continuity plans can be executed when
Government Reform, House of Representatives, Continuity    required.
of Operations: Agency Plans Have Improved, but Better
Oversight Could Assist Agencies in Preparing for
Emergencies, April 2005.


November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                            11
EVALUATING YOUR AGENCY’S READINESS

                            CONTINUITY OF OPERATIONS PLANNING

                                                                    COOP Shortcomings and Best
                                                                    Practices
                                                                    As you review your agency’s COOP, consider the
                                                                    shortcomings and best practices identified by other
                                                                    OIGs.

                                                                    SHORTCOMINGS NOTED
                                                                    Some agencies did not
                                                                    •	 Adequately identify essential mission
                                                                       functions, or periodically review their COOPs
                                                                       to ensure planning assumptions and decisions
                                                                       were still valid.

                                                                    •	 Clearly identify systems, data files, and records
                                                                       necessary to each essential mission function
                                                                       and required for successful COOP activation.

                                                                    •	 Equip alternate locations with the critical
                                                                       equipment or infrastructure necessary to
                                                                       resume operations within periods specified in
                                                                       plans.

                                                                    •	 Test procedures for accessing critical data.

                                                                    •	 Establish recovery timetables for restoring
                                                                       essential mission functions.
Source: http://www.dhs.gov/interweb/assetlibrary/NRP_Brochure.pdf   •	 Clearly define and communicate roles and
                                                                       responsibilities of those involved in the COOP
                                                                       activation.
In addition, the National Response Plan assigns
certain agencies specific responsibilities in •	 Establish procedures for communicating with
incidents of national significance (see appendix E).    employees not involved in the COOP activation
These agencies must ensure their COOPs address          as agency operations were being restored.
their assigned responsibilities.
                                                     •	 Delineate the order of succession for key
                                                        positions or procedures for effecting an orderly
                                                        succession.




12                                                                                     Inspection and Evaluation Committee
EVALUATING YOUR AGENCY’S READINESS

                            CONTINUITY OF OPERATIONS PLANNING

BEST PRACTICES

• 	 Conducting periodic, meticulously planned live
    tests of the COOP.

           o	 Garnering support for tests from
              senior management throughout the
              agency.

           o	 Having key portions of the agency’s
              infrastructure available during the
              test.

           o	 Ensuring interoperability of
              communications equipment.

           o	 Documenting the results and
              analyzing them in after-action
              evaluations.

           o	 Establishing performance measures
              for timely implementation of
              needed improvements.
                                                            Federal agencies charged with protecting national-critical
•	 Assigning headquarters and nonheadquarters               infrastructure, such as broadcast towers and antenna, must
                                                            assess their readiness to do so as part of their COOP testing.
   staff to the COOP.
                                                            Source: U.S. Department of Commerce OIG
•	 Implementing procedures for periodically
   reminding non-COOP personnel of their
   duties and responsibilities in the event the
   COOP is activated.

•	 Restricting access to COOP documents.

•	 Developing clear COOP guidance and
   procedures for all agency field sites.




November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                                     13
EVALUATING YOUR AGENCY’S READINESS

                            EMERGENCY PLANNING ORGANIZATIONS


A    n agency’s emergency planning organization
      is usually the centralized body responsible
for overseeing the development and effectiveness
of OEPs, COOPs, and other aspects of
preparedness across all agency components. Its
structure and location within an agency’s hierarchy
vary, but its effectiveness rests on several common
features. If you evaluate the emergency planning
organization in your agency, you’ll want to assess
whether it
•	 Provides centralized policy guidance and
   oversight to ensure that policies are applicable
   to all agency components and are consistently
   applied and followed.

•	 Incorporates national guidelines contained in

           o	 Homeland Security Presidential
              Directives
                                                      •	 Plans and conducts exercises in dispersed field
           o	 The National Incident Manage               locations.
              ment System
                                                      •	 Reviews post-exercise reports to identify gaps
           o	 The National Response Plan                 in policy or execution.

•	 Supports an efficient, well-equipped               •	 Assesses risks and provides oversight for
   emergency operations center that enables              facilities’ physical security plans.
   effective coordination between local and
   national response efforts.                         •	 When contract security forces are used,
                                                         provides central guidance for monitoring their
•	 Reviews OEPs for field facilities to ensure they      effectiveness at agency facilities and ensures
   are consistent with agency policy and                 they have the training, skills, and readiness to
   applicable to local situations.                       respond to all types of emergencies.




14                                                                      Inspection and Evaluation Committee
EVALUATING YOUR AGENCY’S READINESS

                            EMERGENCY PLANNING ORGANIZATIONS





State-of-the-art communications capabilities are a core feature of effective emergency operations centers, enabling them to coordinate
response throughout the agency and with local, state, and federal organizations.
Source: http://www.grantcountyem.com/dispatch3.jpg



Emergency Planning Organization                                       •	 Contracting officers did not have the needed
Shortcomings and Best Practices                                          expertise to negotiate contracts for protective
                                                                         services, nor did oversight officials adequately
                                                                         understand their monitoring responsibilities.
Again, OIG reviews noted the following
weaknesses and best practices in agency BEST PRACTICES
emergency planning organizations.
                                                   •	 Maintaining emergency operations centers that
                                                      have
SHORTCOMINGS NOTED
• 	 Emergency organizations did not provide                  o	 State-of–the-art communications
    sufficient policy guidance or oversight of                  capabilities tied into subordinate
    preparedness programs.                                      and alternate sites, local and
                                                                national emergency operations
•	 Follow-up procedures for addressing weak                     centers and response resources,
    nesses noted in facility risk assessments were              including secure telephone, fax,
    deficient.                                                  and computer capabilities; a
                                                                biological or chemical plume-
•	 Agencies that depended heavily on contract                   modeling or detection capability;
    security guards did not adequately monitor                  and “drive away” kits to enable
    guards’ performance or ensure they had                      deployment to an alternate location
    sufficient training.                                        during an emergency.


November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                                                         15
EVALUATING YOUR AGENCY’S READINESS

                            EMERGENCY PLANNING ORGANIZATIONS

           o	 Trained staff (contract and full-time •	 Convening all-hands meetings to discuss
              employees) who operate the centers       emergency procedures and address employees’
              around the clock and can respond         questions and concerns.
              to any incident.
                                                    •	 Maintaining intranet sites on emergency
           o	 Sophisticated incident management        preparedness to provide single point of access
              capabilities consistent with NIMS        information on all aspects of the program.
              requirements and capable of
              managing or monitoring responses •	 Giving key officials a thumb-drive memory
              anywhere within the department or        device that contains the agency’s COOP plan
              agency.                                  and can be worn around the neck.

          o	 Dual-use centers that can manage •	 Providing specialized training for first
             the agency’s COOP under                 responders, support personnel, and key officials
             emergency conditions as well as its     on roles, responsibilities, and specific skill
             broader responsibilities under the      areas.
             National Response Plan.             FEMA’s NIMS Integration Center offers a number
                                                 of online training courses for employees who have
•	 Training employees on how to use protective disaster preparedness responsibilities. Visit FEMA
   equipment and follow shelter-in-place National Emergency Training Center Virtual
   procedures.                                   Campus at http://www.training.fema.gov/EMIWeb
                                                 /Programs/. OIG staff should consider taking the
                                                 introductory IS 700 course.




16                                                                    Inspection and Evaluation Committee
EVALUATING YOUR AGENCY’S READINESS

                                                                           TESTING PREPAREDNESS PLANS





                 Well-maintained intranet sites give employees easy access to their agency’s latest
                 emergency preparedness information.

                 Source: http://www.osec.doc.gov/osy/


NIMS, NRP, and the GSA OEP Guide all require •	 Target designated participants and first
agencies to test the effectiveness of preparedness      responders (e.g., fire, security, hazmat, medical,
plans. Evaluating whether and how well they             incident command structure).
conduct such testing is an important component
of your review.                                     • 	 Have key assessment criteria and a
                                                        post-exercise evaluation and remediation plan
Exercises should strive to test every aspect of the     (e.g., lessons learned, revisions to procedures,
disaster preparedness program and entail                issues for testing in follow-on exercises).
increasingly complex emergency scenarios. At a
minimum, tests should                               Tabletop Exercises
• 	 Be guided by a clear statement of objectives
                                             When the cost and logistics of live exercises
    (e.g., test the incident command structure and
                                             preclude full-scale testing, agencies may turn to
    communications following an explosion in a
                                             “tabletop” exercises to test components of the
    designated wing of the facility that has cutoff
                                             overall program, such as the incident command
    escape routes).                          structure. In tabletop exercises, participants discuss
                                             actions and responses, and the exercise leader
• 	 Encompass complete evacuation scenarios, introduces simulated complications (called
    including alternate traffic routes and “injects”) to test participants’ readiness and
    transportation venues.


November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                        17
EVALUATING YOUR AGENCY’S READINESS

                                                                             TESTING PREPAREDNESS PLANS





       Practicing procedures under all possible emergency scenarios is essential to keeping preparedness plans viable.

       Source: http://www.gorsky.com/cert/tfd_emergency_drill_2005/IMG_0280.JPG



decision making under a wide range of scenarios. •	 People with disabilities who gathered at
As with a full-scale exercise, the tabletop         designated assembly points were not
evaluation documents lessons learned, procedural    evacuated.
changes required, and recommendations for future
exercises or testing.                            •	 Procedures for accounting for personnel during
                                                    an evacuation were ineffective or nonexistent.
Preparedness Testing Shortcomings                                •	 Some exercise plans did not call for practicing
and Best Practices                                                  shelter-in-place procedures.

OIG teams that observed exercises as part of their •	 Where escape hoods were available and
evaluations identified a number of problems and       included as part of the test of emergency
best practices in this area as well.                  evacuation procedures, some employees left
                                                      the building without their hoods.
SHORTCOMINGS
                                                   •	 Some exercise plans did not have procedures
•	 When a planned exercise was publicized,            for capturing lessons learned and modifying
    employees often scheduled lunch or meetings       the preparedness program accordingly.
    out of the building to avoid participating.



18                                                                                     Inspection and Evaluation Committee
EVALUATING YOUR AGENCY’S READINESS

                                                                   TESTING PREPAREDNESS PLANS


BEST PRACTICES

•	 Test communications equipment under all until the conclusion of the exercise to issue an
   possible response scenarios to make sure it assessment report, IG staff initiated communica
   works.                                         tions with interagency planners and began
                                                  observations during test preparations. IG staff
•	 Routinely test all elements of the OEP/ issued three papers to DHS based on those
   emergency response/COOP plans under varied observations to alert exercise managers to
   scenarios. Analyze results and modify plans in significant items warranting additional attention
   order to eliminate weaknesses.                 before the exercise began.

A Model Approach                                          Though the TOPOFF exercises are intended to test
                                                          national response capabilities, rather than internal
Congress has mandated that every 2 years, the             emergency action plans, the DHS IG’s approach—
Department of Homeland Security oversee a test            providing early input to allow real-time
of the nation’s response capabilities, known as the       modifications and enhance the test outcome—lends
Top Officials (TOPOFF) National Exercise Series.          itself to replication by other OIGs and offers a
The test involves agencies and responders at the          means for improving program outcomes. For more
federal, state, and local levels. In assessing the 2005   on the DHS IG’s approach, visit http://
test, TOPOFF 3, the DHS inspector general                 www.dhs.gov/interweb/assetlibrary/OIG_06
developed an approach that allows timely                  07_Nov05.pdf.
resolution of issues of concern. Rather than wait




November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                            19
In a moment of decision, the best thing you can
do is the right thing to do. The worst thing you
can do is nothing.

                            ~ Theodore Roosevelt
III. AFTERWORD: UNDERSTANDING YOUR CRITICAL ROLE



  W
              hen the IG Act was passed nearly 30        By highlighting current federal requirements, key
              years ago, emergency preparedness was      resources, and critical findings of past IG work,
              likely not envisioned as a core federal    this guide offers a roadmap to help you assess your
  function. And yet today, in the aftermath of once-     agency’s all-hazards preparedness and make
  unimaginable acts of terrorism and massive             recommendations for needed improvements, with
  devastation from natural disasters, emergency          one caveat: the job of building and maintaining an
  preparedness has become a major focus—and              effective program of readiness is never ending, as
  major expense—at agencies of all sizes and             new events expose new areas of concern and
  disciplines. Ensuring the soundness of these efforts   prompt changes in federal requirements. It is
  and expenditures is a critical challenge for the IG    incumbent upon OIGs to revisit this critical area
  community, and its importance cannot be                with some frequency. Your efforts will assuredly
  overstated: how well we perform our work               make a difference in the outcome for your agency
  ultimately impacts how well our agencies fulfill       and its employees, as well as for the nation, when
  their mandate for protecting people, facilities, and   the next emergency occurs.
  critical infrastructure in times of crisis.




  November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                          21
Successful people succeed because they learn from
their failures.

                           ~ Bettina Flores
                                                 Appendix A

                                      OCCUPANT EMERGENCY PLAN CHECKLIST21

If you can’t check all of the following questions, your Occupant Emergency Plan needs strengthening. Contact your
building manager and/or the GSA Physical Security and Law Enforcement Office nearest you if you need help.

       Did building manager, Federal Protective Service, etc., assist in         Have firefighting plans been developed which coordinate
       developing the plan?                                                      internal and external resources?

       Is the committee still available for consultation?                        Do occupants know to whom they should report an unlawful
                                                                                 act?
       Has an emergency organization been established, preferably
       following existing lines of authority?                                    Do occupants know to whom they should report any other
                                                                                 emergency incident?
       Are emergency organization members designated by position
       rather than by person?                                                    Do employees know what procedures to follow if they
                                                                                 receive a telephone bomb threat?
       Do organization members know their own responsibilities as
       well as who has decision-making authority in any given                    Are bomb search responsibilities and techniques specified in
       situation?                                                                the plan?

       Has a procedure been established to notify organization                   Are procedures established for reporting the progress of a
       members?                                                                  search, evacuation, etc.?

       Are emergency procedures easy to implement rapidly?                       Have procedures been established for bomb disposal?

       Has a Command Center (CC) location been established?                      Have emergency shutdown procedures been developed?

       Are communications at the CC adequate?                                    Have plans been made for capture and control of elevators?

       Do emergency organization members know under what                         Have arrangements been made for emergency repair or
       circumstances they are to report to the Command Center?                   restoration of services?

       Are employees who do not have assigned duties excluded from               Have drills and training been adequate to ensure a workable
       the Command Center?                                                       emergency plan?

       Are emergency telephone numbers posted in the CC and                      In leased space, is the responsibility of the owner/lessor
       throughout the building?                                                  clearly defined?

       Published in the telephone book?                                          If contract guards are used, have their authority and
                                                                                 responsibilities been defined?
       Are procedures established for handling serious illness, injury,
       or mechanical entrapment?                                                 Are floor plans and occupant information readily available
                                                                                 for use by policy, fire, bomb search squads, and other
       Do organization members know what medical resources are                   emergency personnel?
       available and how to reach them?
                                                                                 Has a hazard communication program been implemented in
       Have all occupants been told how to get first aid/CPR fast?               accordance with 29CFR?


       Do occupants know what to do if an emergency is announced?                Has an inventory been compiled of all hazardous materials
                                                                                 used in individual workplaces and stored anywhere in the
                                                                                 building?
       Are evaluation procedures established and familiar to all
       employees?
                                                                                 Are emergency telephone numbers displayed and /or
                                                                                 published where they are readily available?
       Have special procedures been established for evacuation of the
       handicapped?
                                                                                 Are they reviewed and updated frequently?
        Are fire reporting procedures established and familiar to all
        employees?


21
  Excerpted from GSA Occupant Emergency Program Guide, March 2002, p. 19. Responsibility for the guide transferred to DHS with the Federal
Protective Service. The full guide is available at http://www.wasc.noaa.gov/wrso/oep-coop/GSA_OEP_Guide_6.doc.



24                                                                                              Inspection and Evaluation Committee
                             Appendix B

  COMMAND AND MANAGEMENT UNDER THE NATIONAL INCIDENT MANAGEMENT SYSTEM
(This appears as appendix D in Department of Homeland Security OIG report OIG-06-32, A Performance Review of FEMA's Disaster Management
Activities in Response to Hurricane Katrina. View the entire report at http://www.dhs.gov/interweb/assetlibrary/OIG_06-32_Mar06.pdf.)



Command and Management Under NIMS

To the extent possible, disasters are managed locally; most responses do not exceed the capabilities of
the local government. However, some incidents require multiple jurisdictions or levels of government
to provide an adequate response. In addition, some incidents initially can be handled locally but grow
in size or complexity and require assistance and support beyond what is available at the local level. The
NIMS provides an effective and efficient coordination system to enable multiple entities at different
levels of government to conduct incident management activities.

The NIMS uses two levels of management structures depending on the size, nature, and complexity of
the incident. First, an Incident Command System is a standard on-scene, all-hazard incident management
system that allows users to establish an integrated organizational structure to respond to single or
multiple incidents. Second, Multiagency Coordination Systems provide a common framework to
integrate and support incident management and coordination for incident prioritization, critical resource
allocation, integration of communication systems, and information flow.

The Incident Command System
The ICS structure is designed to enable effective and efficient domestic incident management by
integrating a combination of facilities, equipment, personnel, procedures, and communications operating
within a common organizational structure. The ICS structure is widely applicable to a variety of
emergencies from small and basic to large and complex, whether natural or man-made. It applies
across all levels of government, the private sector, and nongovernmental organizations, as well as
across multiple functional disciplines. Several characteristics enable ICS to efficiently and effectively
manage incidents:

•	   Use of common terminology;
•	   Scalable, top-down modular system based on the size, complexity, and nature of the incident;
•	   Incidents managed by objectives established by the incident command;
•	   Use of incident action plans to communicate strategic objectives and operational and support
     activities to the incident command organization;
•	   Span of control ranging from three to seven subordinates;
•	   Designation of one supervisor for each individual for the incident;
•	   Clear chain of command and authority within the organization; and,
•	   Use of communication plans and interoperable communications systems.

ICS Organization
The ICS structure usually includes five major functional areas: command, operations, planning, logistics,
and finance/administration. Depending on the size and complexity of the incident, additional functional
or geographic branches or divisions can be included within one or more of the major functional areas.
FEMA used all five major functional areas in each of the affected states.


November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                                                          25
                               Appendix B

COMMAND AND MANAGEMENT UNDER THE NATIONAL INCIDENT MANAGEMENT SYSTEM (CONT.)





             Example Incident Command System Response Organization



                                                 Incident                  Commander Staff
                                                Commander            (Public Information Officer,
                                                                    Safety Officer, Liaison Officer)




      Operations                Planning                     Logistics                    Finance/Admin
       Section                  Section                       Section                         Section


         Branches              Resources Unit                 Supply Unit                   Procurement Unit

                               Situation Unit                Facilities Unit                   Time Unit

       Divisions and           Documentation                   Ground                         Compensation
          Groups                   Unit                      Support Unit                      Claims Unit

                               Demobilization                 Food Unit                        Cost Unit
                                   Unit
                                                            Communications
                                 Technical
                                                                Unit
                                 Specialists
                                                             Medical Unit




Incident Command: The Incident Commander is responsible for overall management of the incident.
This can be accomplished through a single command or a unified command. Under a single command,
the Incident Commander develops the strategic incident objectives, approves the incident action plan,
and approves all requests for ordering and releasing incident resources.

Unified command is used for incidents involving multiple agencies or jurisdictions. Under unified
command, multiple agencies and jurisdictions are able to work together effectively without compromising
their different legal, geographic, and functional authorities and responsibilities. Designated members
of each agency work together to develop a common set of objectives and strategies for the entire
incident and jointly plan support activities under a single incident action plan. As a result, unified
command improves information flow, communication, and coordination and reduces duplication of
efforts. For Hurricane Katrina, Mississippi and Alabama established unified commands from the start,
while Louisiana did not.


26                                                                             Inspection and Evaluation Committee
                               Appendix B

COMMAND AND MANAGEMENT UNDER THE NATIONAL INCIDENT MANAGEMENT SYSTEM (CONT.)


Operations: The Operations Section is responsible for activities dedicated to reducing the immediate
hazard, saving and sustaining lives and property, establishing situational awareness and control, and
restoring normal operations. ICS provides flexibility for organizing incident operations depending on
the nature of the incident, the agencies involved, and the strategic objectives set by the incident
commander. Within the Operations Section, divisions or groups are established when resources involved
exceed the Operations Section Chief’s manageable span of control. Divisions create geographical areas
of operation. Groups create functional areas of operation. If the number of divisions or groups exceeds
the manageable span of control or the incident involves multiple jurisdictions, branches would be
established.

Planning: The Planning Section gathers, evaluates, and disseminates situational information and
intelligence critical to the incident; prepares situation reports and incident maps; maintains the status
of incident resources; and develops the incident action plan based on the incident commander’s strategic
objectives.

Logistics: The Logistics Section provides support needs for the incident, including ordering resources
from off-incident locations if not readily available in the incident area. Logistics provides facilities,
transportation, supplies, equipment maintenance and fuel, food services, communications, and medical
services for personnel.

Finance/Administration: A Finance/Administration Section is established if an incident requires
significant financial, reimbursement, or administrative support services. If established, this section
monitors multiple sources of funds, tracks and reports funds spent or obligated, and reconciles operational
records with financial records.

Multiagency Coordination Systems

Multiagency coordination systems provide the framework to coordinate and support incident
management policies and priorities, facilitate logistics support and resource tracking, make critical
resource allocation decisions, coordinate incident related information, and coordinate interagency and
intergovernmental issues regarding incident management policies, priorities, and strategies. Facilities,
equipment, personnel, procedures, and communications are resources integrated into a multiagency
coordination system. Operational responsibility for incident management activities remains, however,
with the on-scene incident commander.

Both emergency operations centers (EOCs) and multiagency coordination entities could be part of a
multiagency coordination system. EOCs, usually established at the state or local level, are the physical
location where core functions of coordination, communications, resource dispatch and tracking, and
information collection are executed. Personnel from multiple jurisdictions or functional disciplines
may staff EOCs. For Hurricane Katrina, each affected state activated and staffed its EOC following
basic ICS positions and elements. This facilitated coordination between federal and state counterparts,
and ultimately, integration when the incident command organization was established in each state’s



November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                         27
                               Appendix B

COMMAND AND MANAGEMENT UNDER THE NATIONAL INCIDENT MANAGEMENT SYSTEM (CONT.)

joint field office. The Homeland Security Operations Center was activated and executed the core EOC
functions at the federal level for Hurricane Katrina.

Multiagency coordination entities support and facilitate incident management, coordinate policy, and
provide strategic guidance and direction to support incident management activities. These entities usually
include representatives from agencies or organizations with direct incident management responsibility
or significant support and resource responsibilities. Several multiagency coordination entities were
used during the Hurricane Katrina response, including the National Response Coordination Center,
regional response coordination centers, and the Interagency Incident Management Group.




28                                                                       Inspection and Evaluation Committee
                                      Appendix C4

                 NIMS TEMPLATES: EMERGENCY OPERATIONS PLANS AND CHECKLIST





                                          Emergency Operations Plans (EOPS)


                      The following simple template can be used to identify existing EOPs.





4
    The complete template is available at http://www.fema.gov/nims/nims_toolsandtemplates.shtm.




November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                  29
                                 Appendix C

         NIMS TEMPLATES: EMERGENCY OPERATIONS PLANS AND CHECKLIST (CONT.)



Use the following checklist to track your agency’s progress at revising its emergency operations
plans (EOPs) to incorporate NIMS. Use a separate checklist for each EOP.

                                                       EOP Checklist



                                                                                                         Adoption
                                    EOP Title                                         Checklist
                                                                                                           Date
        Defines the scope of preparedness and incident management
        activities necessary for the jurisdiction.
        Describes organizational structures, roles and responsibilities,
        policies, and protocols for providing emergency support.
        Facilitates response and short-term recovery activities.
        Is flexible enough to use in all emergencies.
        Describes the EOP purpose.
        Describes the EOP situation and assumptions.

        Describes the EOP concept of operations.
        Describes the EOP organization and assignment of responsibilities.
        Describes the administration and logistics of the EOP.
        Describes EOP development and maintenance.
        Describes the EOP authorities and references.
        Contains functional annexes.
        Contains hazard-specific appendices.
        Contains a glossary.
        Predesignates jurisdictional and/or functional area representatives to
        the Incident Commander (IC) or Unified Command (UC) whenever
        possible.

        Includes preincident and postincident public awareness, education,
        and communications plans and protocols.




Note: This checklist was adapted from NIMS, Chapter III, Section B 2 a 1, page 35, http://www.dhs.gov/interweb/assetlibrary/
NIMS-90-web.pdf.




30                                                                                      Inspection and Evaluation Committee
                                      Appendix D

                   GAO CHECKLIST FOR CONTINUITY OF OPERATIONS REVIEWS


Did the Program...                                                              Yes           Partially         No

• Identify the agency’s essential functions?

• Identify which essential functions must be continued under all
   circumstances?

• Prioritize essential functions?

• Establish staffing and resource requirements needed to perform
   essential functions?

• Identify a roster of personnel to perform essential functions?

• Identify procedures for employee advisories, alerts, notifications,
    and relocation instructions to the alternate facilities?

• Establish a goal of becoming operational within 12 hours and
   maintaining that capability for 30 days?

• Establish the order of succession to the agency head position?

• Establish orders of succession to other key leadership positions?

• Include officials outside Washington, D.C., in the order of
    succession?

• Describe orders of succession by position title?

• Include the orders of succession in the agency’s emergency vital
    records?

• Establish rules and procedures for resolving questions regarding
    succession in emergencies?
• Define the conditions under which succession takes place and
   how successors are to be relieved?
• Require orientation programs to prepare potential successors for
    their emergency duties?

• Document the legal authority for officials to make policy
   decisions during an emergency?


Note: Adapted from U.S. Government Accountability Office, GAO-04-160, Continuity of Operations: Improved Planning Needed
to Ensure Delivery of Essential Government Services, February 2004.



November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                                       31
                                 Appendix D

            GAO CHECKLIST FOR CONTINUITY OF OPERATIONS REVIEWS (CONT.)



 Did the Program...                                                         Yes        Partially         No

 • Identify when emergency legal authorities begin and end?

• Document the acquisition of alternate facilities?

• Document the facility’s capability to provide previously identified
   equipment and space for previously identified staff?

• Document the capability to provide interoperable communications
   with internal and external organizations, critical customers, and the
   public?

• Identify at least two independent channels for emergency
   communications?

• Identify key internal and external contacts and how to reach them?

• Identify how emergency communications channels will be used to
   access the agency’s vital electronic records?

• Identify the vital records needs to support the identified essential
   functions?

• Identify where and how agency personnel are to access the vital
   records?

• Outline procedures for regularly pre-positioning and updating
     identified vital records?

• Conduct annual individual and team training for COOP staff?

• Conduct annual internal agency testing and exercising of COOP
    plans and procedures, including operations at the alternate
   facility(ies)?

• Conduct quarterly testing of alert and notification procedures?
• Conduct refresher orientations for staff arriving at alternate
   facilities?
• Conduct joint agency exercises, where applicable and feasible?




32                                                                         Inspection and Evaluation Committee
                                             Appendix E

                        EMERGENCY SUPPORT FUNCTIONS ASSIGNED TO FEDERAL AGENCIES



ESF #1 — Transportation

 ≈    Federal and civil transportation support                                        Coordinator: Department of Transportation

 ≈    Transportation safety
 ≈    Restoration/recovery of transportation infrastructure
 ≈    Movement restrictions
 ≈    Damage and impact assessment

ESF #2 — Communications

 ≈   Coordination with telecommunications industry                                    Coordinator: Department of Homeland Security/
                                                                                      National Communications System
 ≈   Restoration/repair and temporary provisioning of communications infrastructure
 ≈   Protection, restoration, and sustainment of national cyber and information
     technology resources

ESF #3 — Public Works and Engineering

 ≈   Infrastructure protection and emergency repair                                   Coordinator: Department of Defense/Army Corps of Engineers

 ≈   Infrastructure restoration
 ≈   Engineering services, construction management
 ≈    Critical infrastructure liaison

ESF #4 — Firefighting

 ≈   Firefighting activities on federal lands                                         Coordinator: Department of Agriculture

 ≈   Resource support to rural and urban firefighting operations

ESF #5— Emergency Management

 ≈   Coordination of incident management efforts                                      Coordinator: Homeland Security/FEMA
 ≈   Issuance of mission assignments
 ≈   Resource and human capital
 ≈   Incident action planning
 ≈   Financial management

ESF #6 — Mass Care, Housing, Human Services                                           Coordinator: Homeland Security/FEMA

ESF #7 — Resource Support                                                             Coordinator: GSA

ESF #8 — Public Health and Medical Services
 ≈    Public health                                                                   Coordinator: Health and Human Services
 ≈    Medical and mental health services
 ≈    Mortuary services

ESF #9 — Urban Search and Rescue

 ≈    Life-saving assistance                                                          Coordinator: Homeland Security/FEMA

 ≈    Urban search and rescue




     November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                                                          33
                                    Appendix E

           EMERGENCY SUPPORT FUNCTIONS ASSIGNED TO FEDERAL AGENCIES (CONT.)


 ESF #10 — Oil and Hazardous Materials Response
 ≈   Oil and hazardous materials
                                                                                        Coordinator: Environmental Protection Agency

 ≈    Environmental safety and short- and long-term cleanup

 ESF #11 — Agriculture and Natural Resources
                                                                                        Coordinator: Department of Agriculture
 ≈   Nutrition assistance
 ≈   Animal and plant disease/pest control
 ≈   Food safety and security
 ≈    Natural and cultural resources and historic properties protection/restoration

  ESF #12 — Energy
                                                                                        Coordinator: Department of Energy
 ≈   Energy infrastructure assessment, repair, restoration
 ≈   Energy industry utilities coordination
 ≈    Energy forecast

  ESF #13 — Public Safety and Security
                                                                                        Coordinator: Department of Justice
 ≈   Facility and resource security
 ≈   Security planning and technical and resource assistance
 ≈   Public safety/security support
 ≈   Support to access, traffic, and crowd control


  ESF #14 — Long-Term Community Recovery
                                                                                        Coordinator: Homeland Security/FEMA
 ≈   Social and economic community impact assessment
 ≈   Long-term community recovery assistance to states, local governments,
     and the private sector
 ≈    Mitigation analysis and program implementation


  ESF #15 — External Affairs

 ≈   Emergency public information and protective action guidance                        Coordinator: Homeland Security

 ≈   Media and community relations
 ≈   Congressional and international affairs
 ≈   Tribal and insular affairs




Source: National Response Plan Quick Reference Guide at http://www.dhs.gov/interweb/assetlibrary/NPR_Quick_ Reference_Guide_5-22-06.pdf




34                                                                                            Inspection and Evaluation Committee
                                                   Appendix F

                                              GLOSSARY OF KEY TERMS


After-Action Report (AAR)
A method of identifying and tracking correction of important problems and carrying out best practices in an operation or
exercise after it has been completed. An AAR may contain lessons learned and recommended changes in plans, training, and
resources.

Agency for Healthcare Research and Quality (AHRQ)
AHRQ is a scientific research agency in the Department of Health and Human Services with a mission to improve the quality,
safety, efficiency, and effectiveness of health care. AHRP provides a computer model to help hospitals and health systems plan
antibiotic dispensing and vaccination campaigns to respond to bioterrorism or large-scale natural disease outbreaks. Located
in Rockville, Maryland. Visit www.ahrq.gov/research/biomodel.htm.

All-Hazards Plan
An all-hazards plan is an emergency operations plan (EOP). It recognizes flexibility in disaster and hazards planning and the
need to combine hazard-specific activities with a core approach that encompasses responses appropriate to all hazards. See
FEMA publication, Guide for All-Hazards Emergency Operations Planning: State and Local Guide SLG 101, available at http://
www.fema.gov/pdf/rrr/slg101.pdf.

Alternate Command Center or Alternate Emergency Operations Center
A location, other than the normal facility, used to host the emergency command center. See also Command Center.

Alternate Site
A location, other than the normal facility, used to process data or conduct critical business functions in the event of a disaster.
The alternate site is a critical requirement of continuity of operations planning.

Area Command
An organization established to oversee the management of multiple incidents or a very large incident that has multiple incident
management teams assigned to it.

Business Continuity
Business continuity and disaster recovery are often used interchangeably, despite significant differences between the two
concepts. “Disaster recovery” refers to a set of activities and programs designed to return the entity to an acceptable condition.
It measures the ability to respond to an interruption in services by implementing a plan to restore an organization’s critical
business functions. “Business continuity management” (BCM) is not just about disaster recovery, crisis management, risk
management control, or technology recovery. BCM is a holistic management process that identifies potential impacts that
threaten an organization and provides a framework for building resilience with the capability for an effective response that
safeguards the interests of its key stakeholders, reputation, brand, and value-creating activities.

Business Continuity Plan (BCP)
A BCP defines and ranks key business functions according to vulnerability and risk, assigns priorities to those functions, and
defines procedures to continue priority functions to ensure continuation of an organization, public or private, as a going
concern in the event of a disaster. A responsive BCP depends on an adequate business impact analysis (BIA) and risk assessment.
Computer system and data recovery, under an IT disaster recovery plan, is a subordinate but important part of a BCP. A BCP
includes safeguards for personnel and families, business assets and reputation, customers, clients, citizens, vendors,
communications; and access to critical resources. It involves training, periodic exercises, post-exercise reviews, and plan updates
with special attention to media relations. A BCP is a major factor in an overall risk management program. A BCP is also known
as business recovery plan, business resumption plan, and business contingency plan. For quasi-government agencies such as
Federal Deposit Insurance Corporation and AMTRAK, the activities included in development of the BCP are equivalent to
those required for a COOP for a federal department or agency.




November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                                                 35
                                                 Appendix F

                                         GLOSSARY OF KEY TERMS (CONT.)


Business Impact Analysis (BIA)
A BIA is an important aspect of managing an organization’s overall risk, including its continuation as a going concern, and its
ability for an effective business continuity plan (BCP) and an information technology (IT) disaster recovery plan. A responsive
BCP, including an IT disaster recovery plan, addresses the findings from a business impact analysis. The purpose of the BIA
is to identify recovery objectives for critical business processes and IT assets, as well as continuity-related risks and vulnerability
in accord with the findings of a risk assessment. With an adequate BIA and risk assessment, an organization can evaluate
whether changes are needed in its business continuity and disaster recovery plans. These plans should be kept up-to-date and
periodically tested. The BIA is primarily applicable to quasi-governmental organizations such as the Federal Deposit Insurance
Corporation or AMTRAK. Within a federal department or agency, the activities included under the BIA would be included in
COOP planning.

Call Tree
A call tree is a document that graphically depicts the calling duties and the calling sequences used to contact management,
staff, customers, vendors, and other key contacts in the event of an emergency, disaster, major power outage, or other crisis
condition.

Checklist Test
A method used to test a completed plan to determine if information, such as phone numbers, manuals, equipment, etc., in the
plan is accurate and current.

Community Emergency Response Team (CERT)
A team of local citizens, with or without an organizational affiliation, trained in a range of basic emergency response skills and
techniques to assist their community in times of emergency. CERT training is conducted in accordance with national standards
that are available from the Federal Emergency Management Agency.

Continuity of Government
The internal efforts taken at the policy and/or executive level of a national, state, or local governmental agency or entity to
assure the continuity of essential functions across a wide range of potential emergencies by providing for succession to office
and emergency delegations of authority in accordance with applicable law; safekeeping of essential resources, facilities, and
records; and establishment of emergency operating capabilities.

Continuity of Operations Plan
The internal efforts of an agency or other entity, public or private, to assure continuance of its minimum essential functions
across a wide range of potential emergencies, to include localized or widespread acts of nature, accidents, technological or
radiological events, and responses to them.

Crisis Management
Predominately a law enforcement function that includes measures to identify, acquire, and plan the use of resources needed to
anticipate, prevent, and/or respond to a threat or act of terrorism or other emergency. The requirements of consequence
management and crisis management are combined in the National Response Plan.

Critical Infrastructure
Systems and assets, whether physical or virtual, so vital to the United States that their incapacity or destruction would have a
debilitating impact on the national economy, security, public health or safety, or any combination of these.

Defense Support of Civil Authorities
DoD support, including federal military forces, DoD civilian and contractor personnel, and DoD agencies and components,
to domestic emergencies and designated law enforcement and other activities.




36                                                                                           Inspection and Evaluation Committee
                                                 Appendix F

                                         GLOSSARY OF KEY TERMS (CONT.)



Designated Official
The highest-ranking official in a federal facility or another person agreed to by all facility tenant agencies assigned responsibility
for activating the facility OEP.

Emergency Operations Center (EOC)
The physical location at which the coordination of information and resources to support domestic incident management
activities takes place. An EOC may be a temporary facility or may be located in a central or permanently established facility.
EOCs may be organized by major functions or disciplines (e.g., fire, law enforcement, and medical services), by jurisdiction, or
by some combination of both.

Emergency Operations Plan
The plan maintained at various jurisdictional levels for managing a wide variety of potential hazards.

Emergency Response Providers
Federal, state, local, and tribal government public safety, law enforcement, or other emergency response, emergency medical,
and related personnel, agencies, facilities, and/or authorities designated to respond in emergency situations.

Emergency Support Function (ESF)
A grouping of government and certain private-sector capabilities into an organizational structure to provide the support
resources, program implementation, and services that are most likely to be needed to save lives, protect property and the
environment, restore essential services and critical infrastructure, and help victims and communities return to normal following
domestic incidents. ESFs are detailed in the annexes to the National Response Plan.

Escape Hoods
Individual protective devices issued to employees to provide temporary breathing assistance during evacuations from areas in
which the breathing air is contaminated by smoke, hazardous chemical vapors, or airborne biological agents.

Federal Coordinating Officer
The federal officer who is appointed to manage federal resource support activities related to Stafford Act disasters and
emergencies within the joint field office under a National Response Plan activation.

Federal Emergency Communications Coordinator (FECC)
The person assigned by GSA to serve as the principal federal manager for emergency telecommunications requirements in
major disasters, emergencies, and extraordinary situations.

First Responder
Local and nongovernmental police, fire, and emergency personnel who in the early stages of an incident are responsible for
the protection and preservation of life, property, evidence, and the environment, including emergency response providers as
defined in section 2 of the Homeland Security Act of 2002, as well as emergency management public health, clinical care,
public works, and other skilled support personnel who provide immediate support services during prevention, response, and
recovery operations.

Floor Teams
Personnel assigned responsibility for executing the occupant emergency plan. Floor team members are selected from among
the workforce occupying a floor of a federal facility. One person is assigned to coordinate the team’s efforts.

Incident
An occurrence or event, natural or human caused, that requires an emergency response to protect life or property.




November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                                                   37
                                                Appendix F

                                        GLOSSARY OF KEY TERMS (CONT.)



Incident Action Plan
An oral or written plan containing general objectives that reflect the overall strategy for managing an incident.

Incident Command Post
The field location at which the primary tactical-level, on-scene incident command functions are performed.

Incident Command System
A standardized on-scene emergency management construct specifically designed to provide for the adoption of an integrated
organizational structure that reflects the complexity and demands of single or multiple incidents that may span jurisdictions.

Incident Commander
The individual responsible for all incident activities, including the development of strategies and tactics and the ordering and
release of resources.

Incident Management Team
The incident commander and appropriate command and general staff personnel assigned to an incident.

Incident of National Significance
Based on criteria established in HSPD-5, an actual or potential high-impact event that requires a coordinated and effective
response by an appropriate combination of federal, state, local, tribal, nongovernmental, and/or private-sector entities in
order to save lives and minimize damage.

Joint Field Office
A temporary federal facility established locally to provide a central point for federal, state, local, and tribal executives with
responsibility for incident management.

Joint Information System
An integrated incident information and public affairs organization designed to provide consistent, coordinated, timely
information during a crisis or incident operations.

Joint Operations Center
The focal organization for all federal investigative law enforcement activities during a terrorist or potential terrorist incident,
or another significant criminal event.

Multijurisdictional Incident
An incident requiring action from multiple agencies that each have jurisdiction to manage certain aspects of the event. These
incidents will be managed under Unified Command.

National Counterterrorism Center
The primary federal agency for analyzing and integrating all intelligence possessed or acquired by the federal government
pertaining to foreign-initiated terrorism.

National Incident Management System (NIMS)
A system mandated by HSPD-5 that provides a consistent, nationwide approach to domestic incident response, regardless of
cause, size, or complexity.

Nuclear Incident Response Team
Created by the Homeland Security Act to provide DHS with a nuclear/radiological response capability.




38                                                                                        Inspection and Evaluation Committee
                                               Appendix F

                                       GLOSSARY OF KEY TERMS (CONT.)



Occupant Emergency Plan (OEP)
A set of procedures to protect life and property in federally occupied space under defined emergency conditions. The Federal
Protective Service and the General Services Administration provide guidelines and assistance for developing OEPs.

Principal Federal Official
The federal official designated by the Secretary of Homeland Security to act as his/her representative locally to oversee,
coordinate, and execute the Secretary’s incident management responsibility under HSPD-5 for incidents of national significance.

Radiological Emergency Response Team
Team provided by EPA’s Office of Radiation and Indoor Air to support and respond to incidents or sites containing radiological
hazards.

Shelter in Place
An emergency action in which facility occupants are sheltered in a protected location within the facility in lieu of evacuation.
Situations in which shelter in place may be appropriate include civil unrest, certain weather emergencies, atmospheric release
of toxic substances, or other external hazards.

Unified Command
An application of the incident command system used when there is more than one agency with incident jurisdiction or when
incidents cross political jurisdictions.

Voice-over-Internet Protocol
A technology that allows the use of broadband Internet connections for voice/telephony communications. The technology
can be used on a facility’s intranet to provide emergency messaging communications and instructions to building occupants.




November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                                              39
                                       Appendix G

                       INTERNET RESOURCES FOR DISASTER PREPAREDNESS



All-Hands Community, Emergency Management, and Business Continuity Community Web Site
Contains a massive collection of information on disaster preparedness, focused on both the public and private
sector. http://www.all-hands.net

Centers for Disease Control and Prevention
Emergency Preparedness and Response. A source for medical aspects of emergency planning. http://
www.bt.cdc.gov/planning/

Emergency Management & Command (EMAC) International, LLC
Provides access to NIMS training resources, document libraries, and discussion bulletin boards. http://
www.nimsonline.com

National Archives and Records Administration (NARA)
A Primer on Disaster Preparedness, Management, and Response: Paper-Based Materials. Contains basic
information on protection of paper records. http://www.archives.gov/preservation/emergency-prep/disaster
prep-primer.html

Office of Personnel Management
OPM Federal Manager’s/Decision Maker’s Emergency Guide. Provides guidance on human resource issues
that may arise during emergencies. http://www.opm.gov/emergency/PDF/ManagersGuide.pdf

U.S. Department of Health and Human Services, Agency for Healthcare Research and Quality
Evaluation of Hospital Disaster Drills: A Modular Approach. Provides a well-thought-out model for planning
emergency response. Tailored to a hospital environment, but has broad applicability. http://www.ahrq.gov/
research/hospdrills/

U.S. Department of Homeland Security
Emergencies & Disasters. Contains a large volume of source documents and information on disaster preparedness.
http://www.dhs.gov/dhspublic/theme_home2.jsp

U.S. Department of Homeland Security, Federal Emergency Management Agency
Provides another broad source of information on disaster preparedness, with information on specialized threats
from fires to terrorism. Links to additional resources on emergency management training and NIMS
implementation. http://www.fema.gov/

U.S. Department of Labor, Occupational Safety and Health Administration
Emergency Preparedness and Response. http://www.osha.gov/SLTC/emergencypreparedness/index.html




40                                                                         Inspection and Evaluation Committee
                                              Appendix H
                                              REFERENCES

1. The National Security Act of 1947, dated July 26, 1947, as amended. http://www.intelligence.gov/0
natsecact_1947.shtml

2. The Homeland Security Act of 2002 (PL 107-296), dated November 25, 2002.
http://fl1.findlaw.com/news.findlaw.com/hdocs/docs/terrorism/hsa2002.pdf

3. Federal Information Security Act of 2002 (Title III, E-Government Act of 2002, PL 107-347), dated December
17, 2002, available at http://csrc.nist.gov/policies/FISMA-final.pdf

4. Executive Order (EO) 12148 Federal Emergency Management, dated July 20, 1979, as amended, http://
www.archives.gov/federal-register/codification/executive-order/12148.html

5. Executive Order 12472, as amended by EO 13231, Assignment of National Security and Emergency
Preparedness Telecommunications Functions, dated April 3, 1984. http://www.fas.org/irp/offdocs/eo/eo
12472.htm

6. Executive Order 12656, Assignment of Emergency Preparedness Responsibilities, dated November 18, 1988,
as amended. http://www.archives.gov/federal-register/executive-orders/disposition.html

7. Executive Order 13286, Establishing Office of Homeland Security, dated February 28, 2003. 6.
http://www.fas.org/irp/offdocs/eo/eo-13286.htm

8. Executive Order 13347, Individuals with Disabilities in Emergency Preparedness, dated July 26, 2004. 6.
http://www.wbdg.org/pdfs/eo13347.pdf

9. Presidential Decision Directive 62, Protection Against Unconventional Threats to the Homeland and Americans
Overseas, dated May 22, 1998. http://www.fas.org/irp/offdocs/pdd/fpc-65.htm

10. Presidential Decision Directive 63, Protecting America’s Critical Infrastructure, dated May 22, 1998.
http://www.fas.org/irp/offdocs/pdd/pdd-63.htm

11. Presidential Decision Directive 67, Enduring Constitutional Government and Continuity of Government
Operations, dated October 21, 1998. http://www.fas.org/irp/offdocs/pdd/pdd-67.htm

12. Homeland Security Presidential Directive 3, Homeland Security Advisory System, dated March 11, 2002.
http://www.whitehouse.gov/news/releases/2002/03/20020312-5.html

13. Homeland Security Presidential Directive 5, Management of Domestic Incidents, dated February 28, 2003.
http://www.whitehouse.gov/news/releases/2003/02/20030228-9.html

14. Homeland Security Presidential Directive 7, Critical Infrastructure Identification, Prioritization, and
Protection, dated December 17, 2003. http://www.whitehouse.gov/news/releases/2003/12/20031217-5.html




November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                            41
                                           Appendix H

                                        REFERENCES (CONT.)


15. Homeland Security Presidential Directive 8, National Preparedness, dated December 17, 2003. http://
www.whitehouse.gov/news/releases/2003/12/20031217-6.html

16. General Services Administration, Child Care Center Design, July 2003. http://www.gsa.gov/gsa/
cm_attachments/GSA_DOCUMENT/Design%20Guide_R2FD38_0Z5RDZ-i34K-pR.pdf

17. FEMA, Federal Preparedness Circular 65, Federal Executive Branch Continuity of Operations (COOP),
dated June 15, 2004. http://www.fas.org/irp/offdocs/pdd/fpc-65.htm.

18. FEMA, Federal Preparedness Circular 67, Acquisition of Alternate Facilities for Continuity of
Operations, April 30, 2001. http://www.mwcog.org/security/security/otherplans/fed_cir_67_sum.pdf

19. General Services Administration, Occupant Emergency Program Guide, dated March 2002. http://
www.fema.gov/pdf/library/fpc67.pdf

20. Department of Homeland Security, National Incident Management System (NIMS), dated March 1, 2004.
http://www.fema.gov/emergency/nims/index.shtm

21. Department of Homeland Security, National Response Plan, dated December 2004. http://www.dhs.gov/
dhspublic/interapp/editorial/editorial_0566.xml

22. U.S. Government Accountability Office, GAO-05-577, Report to the Chairman, Committee on
Government Reform, House of Representatives: Continuity of Operations: Agency Plans Have Improved, but
Better Oversight Could Assist Agencies in Preparing for Emergencies, dated April 2005. http://
searching.gao.gov/query.html?col=+&qt=+05-577&charset=iso-8859-1&ql=&x=7&y=15

23. Homeland Security Council, Planning Scenarios, Executive Summaries Created for Use in National,
Federal, State, and Local Homeland Security Preparedness Activities. http://www.globalsecurity.org/
security/library/report/2004/hsc-planning-scenarios-jul04.htm#toc




42                                                                       Inspection and Evaluation Committee
                                       Appendix I

                 SAMPLE OF OIG EMERGENCY PREPAREDNESS REPORTS AND CONTACTS


  Agency                    Report Title                    Contact           Phone              E-mail
Agriculture      SAS 70 General Controls of the NTIC     Robert Young      202-720-6945   rwyoung@oig.usda.gov


Commerce         Departmental Emergency Prepared         Erin Reuther      202-482-2754   ereuther@oig.doc.gov
                 ness and Security Programs Need
                 Additional Attention (April 2002);
                 Commerce’s Emergency Preparedness
                 Efforts Are Improving, but Additional
                 Management Guidance and Oversight
                 Are Needed (August 2005)


Defense          Audits of emergency preparedness        L. Jerry Hansen   703-602-1017   jerry.hansen@dodig.mil
                 planning for Office of the Secretary
                                                         William Morrison 703-604-9151    william.morrison@dodig.mil
                 and selected overseas operations


Defense          Disaster Preparedness Evaluation        Jennifer          202-231-1032   jennifer.carmichael@dia.mil
Intelligence     (August 2003); Disaster Preparedness    Carmichael
Agency           Follow-up (February 2006)



Education        Emergency Evacuation of People with     Deb Schweikert    202-245-7026   deb.schweikert@ed.gov
                 Disabilities in Department of Educa
                 tion Facilities (December 2003)



Energy            The Department’s Continuity            Gar Dovers        202-586-5798   garland.dovers@hq.doe.gov
                  Planning and Emergency Prepared
                  ness (August 2004)



Farm Credit      FCA’s Emergency Preparedness            Joan Ohlstrom     703-883-4032   ghlstrom@fca.gov
Administration


Federal        Audit of the Commission’s Continuity      Roy Connor        202-418-0470   Roy.Connor@fcc.gov
Communications of Operations Program (September
Commission     2005)


Federal          FDIC’s Business Continuity Plan         Marshall Gentry   202-416-2919   egentry@fdic.gov
Deposit          (August 2004)
Insurance
Corporation




    November 2006/An IG’s Guide to Evaluating Agency Emergency Preparedness
                                                                                                                   43
                                   Appendix I

         SAMPLE OF OIG EMERGENCY PREPAREDNESS REPORTS AND CONTACTS (CONT.)



  Agency                    Report Title                 Contact            Phone              E-mail
Federal           Inspection of the Commission’s      Serina Eckwood     202-694-1015    seckwood@fec.gov
Election          Occupant Emergency Plan
Commission



General        Audit of GSA’s Continuity of           Paul Malatino      202-708-5340   paul.malatino@gsa.gov
Services       Operations Program
Administration



Health           Nursing Home Emergency Pre           Marsha Sayer       202-619-1343   marsha.sayer@oig.hhs.gov
and Human        paredness and Response During
Services         Recent Hurricane (August 2006)




Homeland         A Review of the Top Officials 3      Carlton Mann       202-254-4205   carlton.mann1@dhs.gov
Security         Exercise (November 2005); A
                 Performance Review of FEMA’s
                 Disaster Management Activities in
                 Response to Hurricane Katrina
                 (March 2006)



National          Inspection of NRO Emergency Man     Jim Kiely          703-808-1838   james.kiely@nro.mil
Reconnaissance    agement/COOP
Office



SBA              Audit of SBA’s Continuity of Opera   Robert Seabrooks   202-205-7203   robert.seabrooks@sba.gov
                 tions Planning Program




Veterans Affairs Emergency Preparedness at            David Daigh        202-565-8165   John.daigh@va.gov
                 Selected VA Medical Facilities




44                                                                           Inspection and Evaluation Committee
PRESIDENT’S COUNCIL ON INTEGRITY AND EFFICIENCY

                                  EXECUTIVE COUNCIL ON INTEGRITY AND EFFICIENCY
